                                                         NATIONAL SCIENCE FOUNDATION
                                                          OFFICE OF INSPECTOR GENERAL
                                                            OFFICE OF INVESTIGATIONS

                                                   CLOSEOUT MEMORANDUM

 Case Number: A12030016                                                                                    Page 1 of 1



                This case concerns NSF employee,                  It was brought to our attention
          t h a t - may be sleeping in his vehicle during work hours and falsifying his actual work
          time.

                 On March 7, 2012, while conducting other official business, OIG staff observed.
          -walking to a parked vehicle on the P4 level of the parking garage in Stafford I at
          approximately 6:52am. He remained in the vehicle for over an hour and a half.

                  We reviewed                 IT AS records, timecards and securi
          period January 27, 2012- March 23 , 2012. During this 58-day period,                  ITAS
          records indicate that his official · -in time was typically between 7:00 and 7:30 arn. 1 On 25
          occasions during this period,               security access usage was consistent with what we
          observed on March 7, 2012: he entered Stafford I from the I-P4 parking garage between 7:00
          and 7:30am and then entered again through the same entrance an hour or two later. 2 Most of the
          entries were from parking level 4 through the turnstile to the south elevator banks (P4S Elevator
          Turnstile).

                 On July 6, 2012, we referred this matter to            supervisor
         - ) so that she could determine what occurred and what action to taken. We asked that
         she let OIG/AIGI know what action she ultimately plans to take.

                                  provided a written response on July 27, 2012. She indicated that she
          reviewed our report and met w i t h - on July 9, 2012. They discussed our report and
          their discussion stressed the importance of accurate reporting of hours worked. -
          understood and reiterated his commitment to accurately reporting his work time. In addition, on
          July 18, 2012, their Division Director included a general discussion of the importance of accurate
          time reporting at their all-hands meeting.

                    No further action will be taken.




          1
            On one occasion, February 15, 2012, a Wednesday, his official sign-in time was 7:00 am while the actual clock
          time when he signed in was 1:23 am.
          2
            Security access records show employee entrances to the building using the government ID card; they do not show
          exits.




NSF OIG Fonn 2 (1 1/02)
